Report No: TAD-2008-001       October 30, 2007




               Non-Skid Materials
               Used on Navy Ships
Additional Copies or Suggestions for Future Assessments

To obtain additional copies of this report or to suggest ideas for or to request future
assessments, contact the Office of the Inspector General, Technical Assessment
Directorate at (703) 604-8952 (DSN 664-8952) or fax (703) 604-9808. Ideas and
requests can also be mailed to:

                         Technical Assessment Directorate
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 846)
                            Arlington, VA 22202-4704




 Acronyms

 DLA                     Defense Logistics Agency
 DoN                     Department of the Navy
 EPA                     Environmental Protection Agency
 GSA                     General Services Administration
 IG                      Inspector General
 MSDS                    Material Safety Data Sheet
 NAVSEA                  Naval Sea Systems Command
 NDAA                    National Defense Authorization Act
 NEHC                    Naval Environmental Health Center
 NHRC                    Naval Health Research Center
 NSM                     Non-Skid Materials
 NSTM                    Naval Ships Technical Manual
 OEL                     Occupational Exposure Limit
 OSHA                    Occupational Safety and Health Administration
 PEL                     Permissible Exposure Limit
 QPL                     Qualified Products List
 SIMA                    Shore Intermediate Maintenance Activity
 TWA                     Time Weighted Average
 VA                      Veteran Affairs
                               INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704


                                                                        October 30, 2007

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Report on Non-Skid Materials Used on Navy Ships (Report
         No. TAD-2008-001)


       We are providing this report for information and use. We performed this
assessment in response to a congressional request. No written response to the draft report
was required, and none was received. Therefore, we are publishing this report in final
form.

       We appreciate the courtesies extended to our staff. Questions should be directed
to Mr. Kenneth H. Stavenjord at (703) 604-8952 (DSN 664-8952) or Mr. Chan P.
Sankhla at (703) 604-8917 (DSN 664-8917). See Appendix D for the report distribution.
The team members are listed inside the back cover.




                                         Patricia A. Brannin
                                   Acting Deputy Inspector General
                                        Policy and Oversight
                Department of Defense Office of Inspector General
Report No. TAD-2008-001                                                October 30, 2007
   (Project No. D2007-D000PT-0090.000)

                    Non-Skid Materials Used on Navy Ships

                                 Executive Summary

Background. On September 28, 2006, the Chairman of the Military Personnel
Subcommittee of the House of Representatives Committee on Armed Services requested
that the DoD Inspector General determine whether allegations concerning non-skid
materials (NSM) made in 1980 are substantiated and if substantiated, determine the
extent to which the Navy used the materials on ships. NSMs are deck coverings (paint)
that are wear- and skid-resistant, non-flammable, protect the deck from corrosion, and are
easy to maintain. Types of NSMs relate generally to how they are applied to the deck
and their durability. Qualified Products Lists identify names of the approved NSM
suppliers and manufacturers who meet military specifications, including quality
requirements. Occupational Safety and Health Administration (OSHA) established
safety levels that apply to the dust generated when the NSM is removed. The
Environmental Protection Agency sets standards for the contents of materials, but has not
set any for silica in paints.

Objectives. Based on discussions with the congressional staff, our objectives were to
determine the amount and type of NSMs that were used on Navy ships and whether the
materials met OSHA standards.

Results. From 1998 through January 2007, the General Services Administration
purchased 110,531 gallons of NSM for approximately $3.6 million for the Naval Sea
Systems Command using Qualified Products Lists. Various types of NSMs were
purchased from a number of suppliers during the period. Procurement data from the
1960s through 1998 were not available. Since 1994, the Naval Sea Systems Command
began procuring NSMs from the General Services Administration rather than the Navy
supply system and the Defense Logistics Agency.

Since at least 1991, the Navy has mitigated the effects of the NSM dust with engineered
processes and health and safety procedures, including personal protective gear that meets
or exceeds OSHA requirements related to the dust generated from NSM removal
techniques. There was no available documentation of mitigating procedures
implemented prior to 1991. Tests show that NSM removal techniques generate dust that
can exceed OSHA standards by as much as 29 times in certain circumstances.

Management Comments. We provided a draft of this report on September 28, 2007.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             1

Results
     A. Type and Extent of Non-Skid Materials                           2
     B. Occupational Safety and Health Act Compliance                   5
     C. Other Matters of Interest                                      10

Appendixes
     A.   Scope and Methodology                                        13
     B.   Military Specifications/Performance for Non-Skid Materials   15
     C.   Non-Skid Materials Program Timeline of Events                17
     D.   Report Distribution                                          21




                                         iii
Background

    Deck coverings for naval ships are lightweight, wear- and skid-resistant,
    nonflammable, and possess the ability to protect the deck from corrosion, present
    an attractive appearance, and are easily maintained. Non-skid materials (NSM)
    can be applied to weather decks, flight decks, and hangar decks of air capable
    ships. Ease of painting and low cost are also important considerations in the
    purchase of NSMs. Most NSMs consist of a primer, non-skid top coat, and color
    topping. The primer is applied to provide a base for the topcoat and to protect the
    substrate from corrosion. Some non-skid systems have an intermediate coat that
    is applied after primer and before the non-skid topcoat.


Objectives

    On September 28, 2006, the Chairman of the Military Personnel Subcommittee of
    the House of Representatives Committee on Armed Services requested that the
    DoD Inspector General (IG) determine whether the allegations made in 1980
    related to the adverse effects of NSMs are substantiated, and if substantiated,
    determine the extent to which the Navy used NSMs on ships. The Congressman
    stated that the underlying issue is whether Navy personnel were exposed to air
    concentrations of silica and other aerosolized particles in excess of Occupational
    Safety and Health Administration (OSHA) established safety levels.
    Subsequently, on November 3, 2006, the IG team and congressional staffers
    clarified objectives to determine the extent and type of NSMs used on Navy ships
    and whether the materials met OSHA standards.

    Therefore, we addressed two overall assessment objectives. The first objective
    was to determine the extent and type of NSMs used on Navy ships between 1960
    and the present and whether the materials met OSHA standards in effect at the
    applicable time. The second objective was to review the Navy health and safety
    procedures for material application and removal.




                                         1
           A. Type and Extent of Non-Skid
               Materials
           Various types of NSMs were procured from a number of suppliers since
           the 1960s. Although the procurement data dating back to 1960s were not
           available, we determined that the General Services Administration (GSA)
           purchased 110,531 gallons of non-skid paint for approximately $3.6
           million for the Navy from 1998 through January 2007.


Non-Skid Material Type

    Type of Non-Skid Materials. Deck coverings are classified on the basis of use
    aboard ships. The coating can be applied to steel, aluminum, reinforced plastic,
    and wooden decks by spraying, rolling, or troweling. Performance Specification,
    MIL-PRF-24667A(NAVY), “Coating System, Non-Skid,” August 14, 1992,
    covers non-skid systems for application to weather decks, flight decks, and
    hangar decks on aviation ships. Non-skid products qualifying to this specification
    are classified by type, composition, grade, class and use on metal or wood decks.
    The type defines the NSM’s durability and the application method used on ship
    decks. The composition of NSM is determined by the deck area where it is
    applied. The details of the types are provided in Appendix B.

    Non-Skid Paint Criteria. Military Specification MIL-D-23003 (SHIPS) (Deck
    Covering Compound, Nonslip, Lightweight) was published on September 12,
    1961. MIL-D-23003A (SH) superseded the 1961 specification on February 25,
    1980. On September 11, 1986, DOD-C-24667 (NAVY) (Coating System, Non-
    skid, for Roll or Spray application [Metric]) replaced MIL-D-23003A (SH). This
    specification was superseded on August 14, 1992, by MIL-PRF-24667 and then
    again with the June 3, 2005, version. The table in Appendix B describes each of
    the types and applications of non-skid deck materials contained in each of the
    military and performance standards that were in effect from September 12, 1961,
    through June 3, 2005.


Non-Skid Material Procurement

    Procurement Process. The Navy procured NSMs from Navy supply systems or
    Defense Logistics Agency (DLA) using QPLs until 1994, while GSA bought the
    same materials for the Coast Guard and other Government agencies. The Navy
    supply commands do not have the documentation that recorded the type and
    amount of the materials purchased prior to 1994. GSA procured materials at a
    better price because it bought paints including NSMs for most other Federal
    agencies in large quantities. Therefore, the Navy also decided to buy paint
    through the GSA’s Heartland Global Supply Office, Kansas City, Missouri. The
    Navy used qualified products lists (QPLs) to specify to GSA the names of the
    NSM suppliers and manufacturers who self-certified that the materials met the
                                        2
    Navy’s specifications described in the applicable military specifications (MIL-D-
    23003, DoD-C-24667, or MIL-PRF-24667). The manufacturers also provided
    material safety data sheets (MSDS) for their products. The MSDSs contain
    information on product identification, physical properties, and chemical
    composition; and identify fire and explosion hazards, personal protection, and
    product disposal.

    Qualified Products List Program. The purpose of the QPL program is to
    reduce acquisition and procurement lead time, reduce test cost, improve readiness
    through continuous availability of reliable products from viable suppliers, and
    establish the requirements for evidence of manufacturers’ capability in advance of
    acquisition. DoD Manual 4120.24-M, Defense Standardization Program (DSP),
    Policies, and Procedures, March 2000, that replaced DoD Manual 4120.3-M,
    January 1972, provides guidance on QPLs. The manual states that a QPL is
    appropriate for items of supply that have a stable design or composition and will
    be continually available for an extended period. These criteria make it practicable
    to qualify individual products for the QPL without incurring prohibitive testing
    costs. The primary benefit of the QPL is that it can improve the availability of
    products and shorten the procurement process because long or highly complex
    evaluations and tests of products are completed before the contract award. A
    QPL also allows the manufacturer to provide, and the purchaser to obtain,
    satisfactory pre-contractual evidence that a product or a family of products has
    been tested and has met the requirements of the applicable specifications. The
    supplier is responsible for performing all inspection requirements specified in
    MIL-D-23003 and MIL-PRF-24667. Products and manufacturers that
    successfully pass the qualification process are then identified on a list of qualified
    products or qualified manufacturers. Criteria to retain qualification are applied
    periodically to ensure continued integrity of the qualification status.

    Procurement Cost and Quantity. The GSA NSMs procurement data from 1998
    through January 2007 for 24 national stock numbers provided the following
    information. The GSA data showed that 3,620 requisitions were generated to
    purchase 110,531 gallons of non-skid paint for approximately $3.6 million.


Conclusion

    During the 1960s to mid-1990s, the Navy supply system and the DLA procured
    NSMs for the Naval Sea Systems Command (NAVSEA) using QPLs derived
    from military specifications (MIL-D-23003, DoD-C-24667, or MIL-PRF-24667).
    Since 1994, the GSA has been procuring NSMs for NAVSEA. Procurements
    were made using QPLs that identified names of the approved NSM suppliers and
    manufacturers who met the Navy’s specifications and quality requirements. The
    specifications require contractors to perform all inspection requirements,
    examinations, and tests at their facilities or other Government-approved
    laboratories. Procurement data dating back to the 1960s were not available,



                                          3
however GSA provided data that indicated that GSA purchased 110,531 gallons
of non-skid paint for approximately $3.6 million for the Navy from 1998 through
January 2007.




                                   4
           B. Occupational Safety and Health Act
              Compliance
           The Navy has mitigated dust exposure since at least 1991 with
           requirements contained in Naval Ships Technical Manual, chapter 634,
           “Deck Coverings.” The Navy did not provide documentation that
           mitigating procedures were implemented in its grinding procedures prior
           to 1991.


Occupational Safety and Health Administration Standards

    Occupational Safety and Health Administration Act. OSHA provides
    regulatory limits or standards for the exposure of workers to the amount or
    concentration of a substance in the air. OSHA was established by Public Law 91-
    596, December 29, 1970, also cited as the Occupational Safety and Health Act
    1970. The OSHA mission is to assure safe and healthful working conditions for
    working men and women. It authorizes enforcement of standards developed
    under the act by assisting and encouraging employers’ efforts to assure safe and
    healthful conditions and by providing for research, information, education, and
    training in the field of occupational safety and health. OSHA also provides
    requirements for mitigating controls for limiting workers’ exposure to harmful
    environments. These requirements are met by engineering processes,
    administrative controls, or personal protective gear. The OSHA standards
    provide permissible exposure limits (PEL) for air contaminants including mineral
    dusts and a formula for calculating respirable fraction and total nuisance dust
    limits.

    OSHA does not regulate the content of materials. The EPA regulates the
    manufacturers’ content of the products including paints. However, an EPA Solid
    Waste Program Manager indicated that EPA has set no standard for the silica
    content in paint.

            Respirator Standard. An operator working in a hazardous dust
    environment is required to comply with mitigating controls. Title 29 of the Code
    of Federal Regulations part 1910, “Occupational Safety and Health Standards,”
    section 134, “Respiratory Protection,” states in part:

           In the control of those occupational diseases caused by breathing air
           contaminated with harmful dusts, fogs, fumes, mists, gases, smokes,
           sprays, or vapors, the primary objective shall be to prevent atmospheric
           contamination. This shall be accomplished as far as feasible by
           accepted engineering control measures (for example, enclosure or
           confinement of the operation, general and local ventilation, and
           substitution of less toxic materials). When effective engineering
           controls are not feasible, or while they are being instituted, appropriate
           respirators shall be used pursuant to this section.




                                               5
    Section 134 further explains that respirators shall be provided by the employer
    when such equipment is necessary to protect the health of the employee. The
    employer shall provide the respirators, which are applicable and suitable for the
    purpose intended. The employer shall be responsible for the establishment and
    maintenance of a respiratory protection program. This section also requires the
    employer to provide training to employees who are required to use respirators.

    Executive Order for Federal Government Compliance with OSHA.
    Executive Order 12196, “Occupational Safety and Health Programs for Federal
    Employees,” February 26, 1980, ordered all agencies of the Executive Branch to
    comply with the Occupational Health and Safety Act of 1970. The executive
    order requires all Executive Branch agencies to establish a safety and health
    program for their employees. Although the scope of Executive Order 12196 did
    not include military personnel and uniquely military equipment, systems, and
    operations, both the Department of Defense and the Department of the Navy
    created occupational safety and health programs that incorporated OSHA
    standards such as those set forth in Title 29 of the Code of Federal Regulations
    (C.F.R.). The specific language in 29 C.F.R. § 1910.15, “Shipyard Employment,”
    provides that the standards prescribed by 29 C.F.R. § 1915 shall apply to every
    employment and place of employment of every employee engaged in ship repair,
    shipbreaking, and shipbuilding, or a related employment. A definition of
    “shipyard employment” is provided at 29 C.F.R. § 1915.4(i) that states, “The term
    shipyard employment means ship repairing, shipbuilding, shipbreaking and
    related employments.” Therefore, the term “shipyard employment” is not limited
    to labor that is physically performed within a shipyard. The protection standards
    that cover mechanical paint removers are set forth at 29 C.F.R. § 1915.34,
    “Mechanical Paint Removers.” Paragraph (a)(4) of 29 C.F.R. § 1915.34 requires
    that:

           In a confined space, mechanical exhaust ventilation sufficient to keep
           the dust concentration to a minimum shall be used, or employees shall
           be protected by respiratory protective equipment in accordance with
           the requirements of subpart I of this part.



Dust from Grinding

    NSM Removal Methods. In order for the new paint to bond tightly, the steel
    deck must be cleaned of all old paint and any rust. Several mechanical methods
    are available for NSM removal including abrasive blast cleaning (open blasting),
    abrasive vacuum blasting (vacublasting), or using a combination of grinders,
    chippers, or sanders. The open blast process poses difficulties in containing the
    blast medium (aluminum oxide or garnet) and requires significantly longer clean-
    up time compared with the use of vacublast. Also, an open blast requires that a
    full protective suit with fresh air source be worn because of the debris in the air,
    whereas when vacublasting is performed, only safety glasses, ear protection, and
    a dust mask as specified by the safety officer, need be worn. The primary
    advantage of vacublast cleaning is that it saves time in large open areas, since the
    blast track is large and the shot is contained and recirculated. Further, for bigger
                                             6
jobs the ship yards can use a new self-propelled horizontal shot blast machine that
can produce near-white steel surface for priming with minimum dust and debris
accumulation on surrounding areas.

Sampling Tests. Navy industrial hygienists conduct sampling tests on ships.
Navy’s Sampling Test Procedures describe the sampling that is conducted to
quantify occupational exposures to workplace environmental contaminants. For
environmental contaminants, personal exposure is determined by collecting
breathing zone samples. To obtain the samples, air is collected from within the
breathing zone of the worker. A sampling device is attached to the worker and
worn continuously during the work shift or operation. Low flow and high flow
sampling pumps, combined with filter, impingers, and solid sorbent media, are
used to collect longer duration samples, generally 15 minutes to 8 hours. Samples
collected for as close as possible to100 percent of the time period for which the
Navy occupational exposure limit (OEL) is defined provide the best estimate of
time weighted average (TWA) worker exposure. These samples are then
analyzed in laboratories.

OSHA PELs are based on an 8-hour TWA exposure. Navy’s OELs are based on
many sources; including standards set by OSHA, professional association
guidelines (for example, American Conference of Governmental Industrial
Hygienists, Threshold Limit Values), and from National Institute for
Occupational Safety and Health recommended exposure limits.

Navy Occupational Exposure Data. A senior industrial hygienist at Shore
Intermediate Maintenance Activity (SIMA) in Portsmouth, Virginia, stated that in
order to comply with the OSHA standards, in 1982 the Navy began hiring
industrial hygienists for conducting various sampling tests on ships including
NSM removal operation. In 1984, the Navy Environmental Health Center
(NEHC) created a database for the industrial hygienists working on ships to input
sample test results in the database. Initially, the input to the database was
voluntary so the information provided was incomplete. Therefore, in 1986 the
data collected voluntarily between 1984 and 1986 were deleted and a new
database was created mandating complete data input.

The NEHC provided the information on sample tests performed on the NSM
grinding operations on ships from 1986 through 2005. We reviewed all 875
sample test results of NSM removal operation and found that in 13 tests the dust
generated during NSM grinding operations exceeded the OSHA PELs and/or
Navy OELs. These results stand individually and demonstrate that removal
techniques can exceed allowable exposure limits but are not statistically
projectable.

In nine of the 13 tests, the total nuisance dust exceeded the OSHA PEL and the
Navy OEL that are the same for the total nuisance dust. In two of these nine
failed tests, the amount of total nuisance dust generated from grinding operations
was approximately 29 times the exposure limits.



                                     7
     In four of the 13 tests, crystalline silica exceeded the Navy OEL but not the
     OSHA PEL. The Navy OEL for crystalline silica is 100 times stricter than the
     OSHA PEL. The Navy OEL was exceeded by as much as four times, while test
     results were only 1/23 of the corresponding OSHA PEL.


Navy’s Mitigating Controls

     Navy’s Compliance With OSHA. In compliance with OSHA policy, the
     Department of the Navy (DoN) issued OPNAVINST 5100.8G, “Navy Safety and
     Occupational Safety and Health Program,” July 2, 1986, to establish an
     occupational safety and health program to reduce occupational injuries, illnesses,
     or deaths and material losses or damage. The Navy provided documentation from
     1991 showing mitigating controls for NSM removal to comply with OSHA
     respiratory requirements that are contained in Naval Ships Technical Manual
     (NSTM) chapter 634, “Deck Coverings.” The 1991 NSTM included health and
     safety instructions and warnings for deck painting and paint removal operations.
     The manual stated that:

            Potential hazards are encountered in most deck covering applications.
            Therefore, a continuing safety program during installation is
            mandatory. Adherence to prescribed safety procedures provides
            protection against major hazards such as fire, explosion, and toxicity.
            ... Vapors from some of the solvents used may have harmful and
            irritating effect on the human system, particularly in confined spaces.
            Air respirators and eye protectors are worn depending on the
            application. Container labels shall be read and followed for specific
            safety instructions concerning flammability and toxicity.

     The Advance Change Notice to the NSTM, chapter 634, October 17, 1995, added
     another general safety precaution warning that:

            Dust created during grinding operation of existing deck covering
            materials may present a possible risk of carcinogenicity. ... Many deck
            coverings underlay materials, and latex concrete, mastic, terrazzo, and
            cosmetic polymeric deck coverings contain crystalline silica from the
            sand or quartz components contained therein. During the removal of
            deck covering materials it is imperative that dust control measures be
            implemented. The use of personal protective equipment, including
            respiratory protection is required.

     Navy Grinding Operations Training. A Navy captain from the Navy Bureau of
     Medicine and Surgery stated that although there is no formal training given to
     sailors for the grinding operation, the first-line supervisor provides training in
     grinding operation to the sailor. Safety instructions including the use of respitory
     masks are also provided by the first-line supervisor prior to the grinding
     operation.

     Mitigating Controls Documentation. The Navy provided copies of Revision 1,
     April 1, 1991; Revision 2, September 1, 1999; and Revision 3, December 1, 2001,
     of the Naval Ships’ Technical Manual, chapter 634, “Deck Coverings.” Navy

                                              8
    officials indicated that they do not have the original manual dated May 15, 1976,
    or its prior editions. We also tried to obtain the older manuals by contacting the
    Navy shipyards at Philadelphia and Norfolk, the Historical Naval Ships
    Association, the Naval Historical Center, and the Naval Archives.

    We obtained a copy of the OPNAV Instruction 5100.19C, Volume II,
    January 19, 1994, “Navy Occupational Safety and Health Program Manual for
    Forces Afloat, Safety Precautions for Paint Removal,” that stated “mechanical
    grinding and sanding shall be kept to the absolute minimum with primary reliance
    on impact tools and authorized chemical paint strippers for paint removal.
    Personal protective equipment contained in AEL 2-330024045, asbestos rip-out
    kit, may be used for paint removal operations.” The Navy did not provide the
    earlier versions of this document.

    NAVSEA was able to provide three pages of the NSTM, NAVSEA 0901-LP-190-
    0002, chapter 9190, “Preservation of Ships in Service (Paints and Cathodic
    Protection),” November 1, 1976, that described the precautions and procedures
    prior to a blasting operation that could be used for NSM removal. The excerpts
    from the manual included the requirement for protective gear. The excerpts
    further specified the use of proper protective equipment and required blasters to
    wear hoods and airline respirators or air helmets of the positive pressure type.
    Other mandatory clothing included rubber or leather gauntlet gloves, safety shoes,
    and coveralls. Personnel, other than blasters, including machine operators and
    personnel engaged in work in the vicinity of abrasive blasting operations were
    required to wear full eye protection and Navy Industrial Occupational Safety and
    Health-approved dust respirators. Although the requirement was for blasting, not
    grinding, the document did demonstrate that the Navy was requiring personal
    protective gear in the 1976 time frame.


Conclusion

    OSHA standards require that no employee suffer material impairment of health or
    functional capacity from exposure to health hazards. OSHA sets enforceable
    standards and procedures to protect workers against the health effects of exposure
    to hazardous substances. NSM removal techniques generate dust that can exceed
    OSHA standards by as many as 29 times in certain circumstances. The Navy has
    mitigated dust exposure since at least 1991 with requirements contained in Naval
    Ships Technical Manual, chapter 634, “Deck Coverings.” The OSHA standards
    can be met by incorporating engineered processes and establishing health and
    safety procedures, including the use of personal protective gear. The Navy did
    not provide documentation that mitigating procedures were implemented in its
    grinding procedures prior to 1991.




                                         9
C. Other Matters of Interest

1980 DuPont Employee Complaint

    On August 1, 1980, a DuPont employee wrote to the Department of Labor,
    Occupational Safety and Health Administration Regional Office, Philadelphia,
    requesting protection under OSHA Section 11(c) from discrimination. The
    employee alleged that DuPont would not permit him to report his calculated
    amorphous silica concentration in their titanium dioxide compound MSDS and he
    was unwilling to report the levels of concentration DuPont asked him to report.
    Due to this disagreement, he stated that he was re-assigned to another job. The
    employee alleged that the DuPont MSDS was misleading and would permit
    exposure of workers to air concentrations of amorphous silica 6 to 10 times the
    OSHA-regulated level.

    On January 4, 1982, the OSHA regional office in Philadelphia filed the complaint
    without further action.

    To confirm our analysis of the 1980 complainant calculations, we consulted an
    OSHA industrial hygienist who stated that:

           The assumptions made in calculating the exposure limit of amorphous
           silica were incorrect. The complainant assumed the Titanium dioxide
           was completely covered by the Alumina, and Silica, and therefore
           made his calculations assuming 50 percent silica. The complainant
           should have used the percentage of silica obtained from actual air
           sampling tests. The exposure limit calculated by the complainant could
           be significantly different. Therefore, his claim that the titanium
           dioxide exposure level or the nuisance dust level will permit exposures
           of workers to air concentrations of amorphous silica 6 to 10 times the
           OSHA regulated level may or may not be correct.



1998 Complaint From a Veterans Outreach Foundation

    The Navy IG received a complaint in February 1998, via the Navy Judge
    Advocate General, from the “Veterans Outreach Foundation.” The complainant’s
    concerns were regarding the exposure of Navy personnel aboard naval ships to
    silica, titanium, and aluminum. The complainant alleged the ingredient, DuPont’s
    Ti-Pure R-933, used in the NSMs was responsible for the sailors’ injuries. Since
    1994, the General Services Administration (GSA) has been buying NSMs for the
    Navy. Therefore, the Naval IG forwarded the complainant’s letter and supporting
    documentation to the IGs of the GSA and Environmental Protection Agency
    (EPA) for information and action deemed appropriate.




                                            10
The National Defense Authorization Act of 2006

     The National Defense Authorization Act (NDAA) for Fiscal Year 2006,
     Section 746, “Cooperative Outreach to Members and Former Members of the
     Naval Service Exposed to Environmental Factors Related Sarcoidosis,” requires
     the Secretary of the Navy, in coordination with the Secretary of Veteran Affairs
     (VA), to conduct an outreach program. The purpose was to contact as many
     members and former members of the naval service as possible who, in connection
     with service aboard Navy ships, may have been exposed to aerosolized particles
     resulting from the removal of non-skid coatings used on those ships. The
     Secretary of the Navy is required to provide a report on the results of the outreach
     program 1 year after the enactment of the Act.

     On September 27, 2006, in order to comply with the Act, the Surgeon General of
     the Navy wrote a letter to current and former active duty Service members. He
     urged the current active duty members to contact their military healthcare
     provider for an evaluation and asked veterans to visit a VA health eligibility Web
     site before enrollment for healthcare from the VA. According to the Deputy
     Director for Occupational Medicine, Navy Environmental Health Center the
     Sarcoidosis Outreach Working Group was tasked to generate a program including
     targeted, general, and informational outreach efforts to inform former service
     members and providers of information pertaining to NDAA Section 746. The
     working group targeted its outreach mailing to 1,162 former service members
     identified in the 2004 Navy Lung Disease Assessment Program study, of which
     836 have confirmed receipt. In addition, web-based resources for the education
     of former service members and medical providers have been provided and an
     outreach information line for inquiries regarding the outreach program has been
     established. The report on the results is complete and is expected to be signed by
     the Secretary of the Navy by the end of October 2007.




                                          11
Appendix A. Scope and Methodology
       The assessment was conducted at Commander, Naval Sea Systems Command
       organizations, the U.S. Navy Bureau of Medicine and Surgery, the Naval
       Environmental Health Center, and the Occupational Safety and Health
       Administration headquarters. We reviewed Navy records related to the
       procurement, selection criteria, and types of non-skid materials used from 1960 to
       present. We reviewed the GSA procurement data from 1998 through January
       2007 to determine the quantity and amount spent to buy the NSMs. We reviewed
       OSHA standards and the MSDSs for the chemical composition and properties of
       the NSMs. We reviewed the Navy standards and procedures for applying and
       removing NSMs on ship decks dating back to 1991. The Navy did not provide
       the technical manuals for the 1960 to 1990 time period. We contacted Navy
       shipyards at Philadelphia and Norfolk, the Historical Naval Ships Association, the
       Naval Historical Center, and the Naval Archives to obtain copies of the manuals
       published prior to 1991. We also reviewed the Navy’s Occupational Exposure
       Data collected from the sample tests performed on NSMs removed from ship
       decks.

       Limitations of Scope:

          •   Our review considered only purchases made through GSA. We did not
              determine the amount and type that may have been purchased separately
              through shipyards for ship construction and maintenance.

          •   Our review did not include a determination of whether the mitigation
              controls were implemented aboard ships.

       Use of Computer-Processed Data. We did not use computer-processed data to
       perform this assessment.


Prior Coverage

No prior coverage has been conducted on the overall management of non-skid materials
during the last 5 years.




                                           13
    Appendix B. Military Specifications/Performance
                for Non-Skid Materials
MIL-D-23003 (SHIPS)   MIL-D-23003A (SH)       DoD-C-24667 (NAVY)                MIL-PRF-24667A             MIL-PRF-24667B (SH)
                                                                                   (NAVY)
 September 12, 1961    February 25, 1980         September 11, 1986             August 14, 1992                 June 3, 2005
Type I      Metal     Type I     Obsolete     Type           High           Type    High durability,       Type I          High
                                              IA/B       volatile/Low         I      rollable deck                      durability,
                                                       volatile (general                coating                        rollable deck
                                                         purpose deck                                                     coating
                                                            coating)
Type II    Metal &    Type II    Obsolete     Type           High           Type         Standard          Type II       Standard
            Wood                             IIA/B       volatile/Low        II         durability,                     durability,
                                                       volatile (general             rollable/trowell                  rollable deck
                                                         purpose deck                 deck coating                        coating
                                                            coating
                                                       interior/exterior)
                      Type III   General      Type           High           Type         Standard         Type III        Standard
                                 purpose     IIIA/B      volatile/Low        II         durability,                      durability,
                                 exterior               volatile (wood              rollable, resilient                   rollable,
                                                         deck coating)                deck coating                     resilient deck
                                                                                    (exterior wooden                       coating
                                                                                           deck)
                      Type IV    Aircraft                                   Type         Standard         Type IV        Standard
                                  carrier                                    IV         durability,                     durability,
                                 landing                                             sprayable deck                   sprayable deck
                                   and                                                    coating                         coating
                                 run-out
                                   area
                      Type V     General                                                                   Type V         Extended
                                 purpose                                                                                 durability,
                                 interior/                                                                             rollable deck
                                 exterior                                                                                  coating
                                                                                                          Type VI           High
                                                                                                                      durability, fast
                                                                                                                       cure, rollable
                                                                                                                       deck coating
                                                                                                          Type VII       Fast cure,
                                                                                                                         temporary
                                                                                                                      repair, rollable
                                                                                                                       deck coating
                                                                                                          Type VIII         Low
                                                                                                                        temperature
                                                                                                                       cure, rollable
                                                                                                                       deck coating
                                                                                                          Type IX           High
                                                                                                                        temperature
                                                                                                                         resistance
                                                                                                                       deck coating
                                                                                                           Type X       Submerged
                                                                                                                        applications




                                                             15
Appendix C. Non-Skid Materials Program
            Timeline of Events
The following chart provides a timeline of non-skid material documentation. It consists
of six bars, each of which indicates a particular type of documentation and whether we
have that document (green dot) or if we do not have the document but it is referenced by
a document that we do have (red dot). The six bars are:

   •   Two Qualified Products Lists: Navy and GSA-qualified vendors for non-skid
       materials

   •   Military Specification (MilSpec) or Performance Specification (MilPrf) for non-
       skid materials: This is one document family, with various versions issued under
       different names/numbers – including MIL-D-23003, superseded by
       DOD-C-24467, and in turn superseded by MIL-PRF-24467. Another document
       in this series, MIL-D-24483A, was released in 1974, and was also superseded by
       DoD-C-24467.

   •   Navy Occupational Exposure Sampling Test Data: Test results from 875 sampling
       tests conducted on grinding operations performed on Navy ship decks.

   •   Material Safety Data Sheets (MSDS): We have two sets of these documents: one
       for product with silica, and one for product without silica. The dates are similar
       but not identical.

   •   GSA Procurement Data: We have information on 3,620 requisitions for non-skid
       material, usually including product and quantity.

   •   Navy Ships Technical Manual, Chapter 634: Deck Coverings

In addition to the above bars, we have a single instance of Navy Ships Technical Manual,
chapter 910, “Preservation of Ships in Service,” January 1970. This is represented by a
single green dot on the chart, near the lower left corner.




                                           17
                                                                                                         Non-Skid Materials Timeline




                                                                                                              7/14/1966 – 5/10/2006
                        7/14/1966                                                                      Continual Issuance of QPL Documents                                                            4/21/2000
                       QPL-23003-7                                                                                                               5/18/1989                                           QPL-23003-40                      5/10/2006
                                                                                                                                                QPL-24667-1                                                                           QPL-24667-32


                                                                                                     Qualified Products List – MIL-D-23003                                                                                                    5/30/2007
                                                                                                                                                                                                                                             QPL-24667-33

                                                                                                                                                                        Qualified Products List – MIL-PRF-24667
      4/2/1965
    MIL-D-23003                                                                                                                                       10/30/1986
    Amendment 2                                                                                                                     9/11/1986                              2/9/1987
                                                                                                                                                  DOD-C-24667(NAVY)
                                                                 8/19/1974                                                      DOD-C-24467(Navy)   Amendment 1       DOD-C-24667(NAVY)
                          12/30/1965                                                  2/25/1980                                                                                                                           6/3/2005
                                                            MIL-D-24483A(SHIPS)                                  1/10/1983                                              Amendment 2           8/14/1992
                         MIL-D-23003                                              MIL-D-23003A(SH)                                                                                                                        MIL-PRF-
     9/12/1961           Amendment 3             5/8/1973                                                    MIL-D-23003A(SH)                                                              MIL-PRF-24467A                24467B(SH)
MIL-D-23003(SHIPS)                          MIL-D-24483(SHIPS)                                                 Amendment 1                                                                     (NAVY)




                                                Military Specification / Performance Specification MIL-D-23003(SHIPS) + MIL-D-24483A(SHIPS) + DOD-C-24467

                                                                                                                                                                           1/21/1986 – 9/14/2004
                                                                                                                                                                  Navy Occupational Exposure Data (NOEDS)

                                                                                                                                                                                                                8/06/1998 – 11/20/2006
                                                                                                                                                                                                                        MSDS

                                                                                                                                                                                                            Material Safety Data Sheets


                                                                    7/1/1980
                                                             OSHA Requirements
                                                             apply to US Agencies                                                                                                                               GSA Procurement Data
                                                                                                                                                                                                                     1/1/1999 – 1/31/2007
                                                                                                                                                                                                                      3,620 Requisitions
                      1/1/1970
                                                                                                                                                       4/1/1991                10/17/1995
             NSTM, Ch. 9190, Preservation                                                                                                                                                            11/6/1996            10/19/2001
                                                                                                                                                     Ch. 634, Deck         Adv. Change Notice
                 of Ships in Service                                                                                                                                                            Adv. Change Notice
                                                                                                                                                    Coverings, Rev. 1        1/A to Ch. 634                              Ch. 634, Deck
                                                                          5/15/1976                                                                                                               3/A to Ch. 634        Coverings, Rev. 3
                                                                 Naval Ships Technical Manual
                                                                     S9086-VG-STM-000



                                                                                                                                                                      Naval Ships Technical Manual S9086-VG-STM-010/CH-634

                  We have document
                  We do not have document, but it is referenced by other documents we do have
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel & Readiness
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Surgeon General, Department of the Navy
The Bureau of Medicine and Surgery
Navy Environmental Health Center
Naval Medical Center Portsmouth, VA

Other Defense Organizations
Director, Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          21
Team Members
The Department of Defense Office of the Acting Deputy Inspector General for
Policy and Oversight, Technical Assessment Directorate prepared this report.
Personnel of the Department of Defense Office of Inspector General who
contributed to the report are listed below.

Kenneth H. Stavenjord
Chandra P. Sankhla
Anh H. Tran
Minh Q. Tran
Edward J. Kell
